                OFFICE OF INSPECTOR GENERAL

 FINANCIAL MANAGEMENT SYSTEM &
     COMPLIANCE EVALUATION
                                    ON SELECTED
                                   NEA GRANTS TO

                      State Education Agency
                     Directors of Arts Education
                                      Dover, Delaware

                          REPORT NO. SCE-14-05

                                         July 16, 2014




                                  REPORT RELEASE RESTRICTION
In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on
the National Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly
available with the approval of the NEA Office of Inspector General. Information contained in this report
may be confidential. The restrictions of 18 USC 1905 should be considered before this information is
released to the public. Furthermore, information contained in this report should not be used for purposes
other than those intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                               INTRODUCTION
BACKGROUND
State Education Agency Directors of Arts Education (SEADAE) was incorporated in
2005 and granted non-profit status in 2006 to develop a nationwide infrastructure of arts
education peers in State Departments of Education. SEADAE's membership is open to
those persons designated by State Departments of Education as responsible for
overseeing arts education policy (Dance, Music, Theatre and Visual Arts) within their
state. SEADAE's mission is to support the professional effectiveness of individual
members and provide a collective voice for leadership on issues affecting arts education.

OBJECTIVE AND SCOPE
The objective of this financial management system and compliance evaluation by the
National Endowment for the Arts (NEA) Office of Inspector General (OIG) was to
determine whether the organization’s financial management system and recordkeeping
complies with the requirements established by the Office of Management and Budget
(OMB) and NEA’s General Terms and Conditions for Grants and Cooperative
Agreements to Organizations (General Terms).

The review was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency Quality Standards for Inspections and Evaluations, as
applicable. Accordingly, we included such tests of records and other procedures that
were considered necessary under the circumstances. The Standards require that we
obtain sufficient, competent and relevant evidence to support a reasonable basis for our
findings and conclusions.

During the period under review, SEADAE had seven NEA grants opened or closed
within the last three years, with awards totaling $305,000. We judgmentally selected and
reviewed two of the seven grants in which NEA funds had been drawn down and costs
had been reported.

The two grants reviewed were as follows:

                Grant No.           Original Award           Total Outlays
                                       Amount
              10-5100-8257                    $75,000                $210,120
              11-5100-8233                     50,000                 265,264
                  Total                      $125,000                $475,384

Grant No. 10-5100-8257 was an Arts Education grant in the amount of $75,000, with a
one-to-one matching requirement. The award was to support Channeling the Change
program.




                                            1
Grant No. 11-5100-8233 was an Arts Education grant in the amount of $50,000, with a
one-to-one matching requirement. The award was to support professional development
which included leadership conferences and webinars.

PRIOR AUDIT COVERAGE
During the past five years, NEA OIG has not issued an evaluation or audit report on
Federal grants awarded to SEADAE. SEADAE officials informed us that the
organization has never had a financial statement audit performed; however, the
organization submits the Internal Revenue Service (IRS) Form 990. The 2012 IRS Form
990 was prepared by AZ Business Consulting (an independent accountant). SEADAE
was not subject to the audit requirements of OMB Circular A-133.

                      RESULTS OF EVALUATION
Our evaluation concluded that SEADAE did not comply with the financial management
system requirements established by OMB and NEA for Federal awards. SEADAE did
not report accurate costs on its Federal Financial Report (FFR) or maintain adequate
supporting documentation for in-kind costs. SEADAE did not maintain written policies
and procedures to ensure that contracts are adequately monitored. SEADAE did not have
written policies and procedures in place for the management of Federal awards and to
ensure that debarred or suspended contractors or recipients did not receive Federal
assistance.

                      FINANCIAL MANAGEMENT
IN-KIND (THIRD-PARTY) COSTS
SEADAE is a network of 43 State Departments of Education employees who are
assigned to manage arts education policies and practices for their state. SEADAE does
not have a physical location or permanent staff. The Executive Board and the members
provide in-kind support and expertise through their respective State Departments of
Education for the majority of SEADAE-related activities.

Grant No. 10-5100-8257

SEADAE did not report actual in-kind costs in its total outlays. SEADAE claimed
$210,120 on its FFR and provided a expenditure listing in the amount of $222,552, which
included $131,469 of in-kind costs.

We determined that $108,150 of the in-kind costs charged to the grant were based on an
average hourly rate of $70. We were informed by SEADAE officials that the $70 is
based on the average salaries of SEADAE members and levels of experience. Using the
average salary is an acceptable method for estimating project budget costs; however, this
is an inappropriate method of reporting project costs. SEADAE did not use the donor's
regular rate of pay to determine the value of in-kind services.


                                            2
OMB's Uniform Administrative Requirements for Grants and Agreements for Institutions
of Higher Education, Hospitals, and Other Non-Profit Organizations, Subpart C of 2
CFR Part 215.23 states in part,

       When an employer other than the recipient furnishes the services of an
       employee, these services shall be valued at the employee's regular rate of pay
       (plus and amount of fringe benefits that are reasonable, allowable, and
       allocable, but exclusive of overhead costs), provided these services are in the same
       skill in which the employee is normally paid.

SEADAE also included inaccurate costs charged for in-kind services in its total outlays.
SEADAE has a contract for project management services to assist in managing its online
and in-person professional development activities.

SEADAE claimed $23,319 (647.75 hours) of in-kind services provided by the contracted
project manager. The project manager's invoice for December 2011 indicated a total of
870.25 hours charged for the year, which included 270.25 hours of in-kind services. The
invoice had a hand-written notation and approval/acceptance by a SEADAE official
indicating that an additional 377.50 hours should be included in the in-kind costs,
resulting in duplicate costs charged to the award. Therefore, we are questioning 377.50
hours of in-kind costs charged to the award for project management services in the
amount of $13,590.

As a result of not reporting actual and accurate costs, we are questioning a total of
$121,740 ($108,150 and $13,590) reported as in-kind costs. We recommend SEADAE
provide documentation to support the actual salary rate of SEADAE members such as
check stubs, W2 forms, or payroll ledgers, along with supporting documentation for the
additional 377.50 hours of in-kind costs reported for the project manager. Without
additional documentation, a potential refund in the amount of $24,594 could be due to
NEA. (See Appendix I)

Grant No. 11-5100-8233

SEADAE did not report actual in-kind costs in its total outlays. SEADAE reported total
outlays in the amount of $265,264 on its FFR. SEADAE provided an expenditure listing
in the amount of $282,423, which included $190,475 of in-kind costs.

We determined that $165,200 of the in-kind costs charged to the grant were based on an
average hourly rate of $70, as indicated above (see Grant No. 10-5100-8257). As a result
of not using the donor's regular rate of pay to determine the value of in-kind services, we
are questioning $165,200 in reported costs. Although we are questioning in-kind salary
costs, SEADAE's total costs for the award exceeds the matching requirement. Therefore,
we are not requiring any additional documentation to support costs for this grant. (See
Appendix I)




                                             3
We recommend SEADAE develop written policies and implement procedures to ensure
that actual and accurate costs for in-kind services are reported as required by OMB and
NEA.

DOCUMENT MAINTENANCE
SEADAE did not maintain adequate supporting documentation for in-kind costs
provided by SEADAE members. SEADAE provided documentation to support the
reported in-kind costs for the grants reviewed. The documentation provided for both
grants were dated for March 5-7, 2014. The grant period ended December 30, 2011, for
Grant No. 10-5100-8257 and December 31, 2012, for Grant No. 11-5100-8233, which
was subsequent to the final report submissions.

NEA General Terms, Section 16. Record Retention, states:

       You must maintain financial records, supporting documents (such as cancelled
       checks, invoices, contracts, travel reports, donor letters, in-kind contribution
       reports, and personnel activity reports), statistical records, and all other records
       pertinent to an award according to the provisions outlined in OMB Circular A-110
       (2 CFR 215), Section 53, or the "Common Rule," Section 1157.42, as applicable.
       Generally, the retention period is three years from the date the final FFR is filed.

For Grant No. 11-5100-8233, SEADAE reported $7,000 of in-kind technology costs in its
total outlays. SEADAE provided the Statement of Work (SOW) and an email to support
in-kind costs. The SOW was not signed or dated by an authorizing SEADAE official.
According to 2 CFR Part 215. 23, all contributions, including third party in-kind, must be
verifiable from the recipient's records. As a result, we are questioning in-kind costs in the
amount of $7,000. Although we are questioning in-kind technology costs, SEADAE's
total costs for the award exceeds the matching requirement. Therefore, we are not
requiring any additional documentation to support costs for this grant. (See Appendix I)

We recommend that SEADAE develop written policies and implement procedures to
ensure in-kind contributions are adequately documented. The documentation should be
prepared and maintained as part of the accounting records to support reported outlays.

CONTRACT MONITORING
SEADAE does not have permanent staff and relies on volunteers and contractors for the
day-to-day operations and management of NEA awards and projects. NEA grant
management is provided by the Treasurer, which could change every two years. During
the review, we inquired as to who provided contract monitoring and oversight,
specifically those which involve technology - the core of NEA projects. We were
informed that contract monitoring was provided by the contracted project manager;
however, contract monitoring was not indicated in the project manager's contract.

Contracting for professional services is allowable under the Cost Principles for Non-
Profit Organizations, 2 CFR Part 230, Appendix B Para. 37 (a), however, the contract


                                             4
should include elements such as description of services to be provided, estimate of time
required and rate of compensation to ensure that the agreement is adequate. In addition,
Subpart C of 2 CFR Part 215.47, states in part:

          A system for contract administration shall be maintained to ensure contractor
          conformance with the terms, conditions and specifications of the contract and to
          ensure adequate and timely follow up of all purchases. Recipients shall evaluate
          contractor performance and document, as appropriate, whether contractors have
          met the terms, conditions and specifications of the contract.

We recommend that SEADAE develop written policies and implement procedures to
ensure that contractors are adequately monitored. The policies should include the
assignment of responsibilities. If oversight is provided by a contractor, the responsibility
should be included in the contract. The policies should ensure that contracts include all
of the relevant provisions in accordance with Subpart C of 2 CFR Part 215.48 and
Appendix A to Part 215.

SUSPENSION AND DEBARMENT
SEADAE did not have policies and procedures in place to ensure that contractors or
recipients were not debarred or suspended from receiving Federal assistance prior to the
payment or award of Federal funds.

NEA General Terms states:

          You must comply with requirements regarding debarment and suspension in
          Subpart C of 2 CFR part 180, as adopted by the Arts Endowment in Title 2 CFR,
          Chapter 32, Part 3254.

Subpart C of 2 CFR Part 180.300, OMB Guidelines to Agencies on Governmentwide
Debarment and Suspension (Nonprocurement), states, in part:

          You must verify that the person with whom you intend to do business is not
          excluded or disqualified. You do this by:

              (a) Checking the EPLS 1; or
              (b) Collecting a certification from that person if allowed by the Federal agency
                  responsible for the transaction; or
              (c) Adding a clause or condition to the covered transaction with that person

We recommended that SEADAE develop written policies and implement procedures to
ensure that contractors and recipients are not debarred or suspended from receiving
Federal assistance prior to the payment or award of Federal funds.



1
    Now part of the System for Awards Management (SAM).




                                                 5
MANAGEMENT OF FEDERAL AWARDS
SEADAE did not have a written manual/handbook with formal policies and procedures
for the management of Federal awards.

The handbook/manual could include policies and procedures for documenting Federal
awards, accounting for program income and expenses, contract management and ensuring
that debarred or suspended contractors or recipients do not receive Federal assistance. It
could also incorporate publications such as the NEA General Terms, NEA's Financial
Management Guide for Non-profit Organizations, and the cost principles of relevant
OMB guidance.

NEA General Terms, Section 18, Procurement Standards, states:

       OMB Circular A-110 (2 CFR 215), Section 40, and the "Common Rule," Section
       1157.30, as applicable, establish standards for procurement. You must have
       standards to ensure that materials and services acquired under Federal awards are
       obtained in an effective manner and in compliance with the provisions of applicable
       Federal statutes and Executive orders.

       Written procedures should include, among other things, determining economical
       approaches, providing for competition, dealing with conflict of interest, efforts to
       use minority, women-owned and small businesses, and maintaining records
       sufficient to detail the procurement process. In addition, you should have written
       procedures to ensure that contractors or recipients are not debarred or suspended
       prior to the payment or award of Federal funds (2 CFR part 180 Subpart C).

We recommend that SEADAE develop and implement a written manual/handbook
containing policies and procedures relating specifically to managing Federal awards.

EXIT CONFERENCE
A telephone exit conference was held with SEADAE officials on July 16, 2014.
SEADAE officials concurred with our findings and recommendations and agreed to
implement corrective actions.

                           RECOMMENDATIONS
We recommend that SEADAE:

   1. Provide documentation for Grant No. 10-5100-8257 to support the actual salary
       rate of SEADAE members such as check stubs, W2 forms, or payroll ledgers,
       along with supporting documentation for the additional 377.50 hours of in-kind
       costs reported for the project manager. Without documentation, a potential refund
       of $24,594 is due to the NEA.




                                             6
2. Develop written policies and implement procedures to ensure that actual and
   accurate costs for in-kind services are reported as required by OMB and NEA.

3. Develop written policies and implement procedures to ensure in-kind
   contributions are adequately documented. The documentation should be prepared
   and maintained as part of the accounting records to support reported outlays.

4. Develop written policies and implement procedures to ensure that contractors are
   adequately monitored. The policies should include the assignment of
   responsibilities. If oversight is provided by a contractor, the responsibility should
   be included in the contract. The policies should ensure that contracts include all
   of the relevant provisions in accordance with Subpart C of 2 CFR Part 215.48 and
   Appendix A to Part 215.

5. Develop written policies and implement procedures to ensure that contractors and
   recipients are not debarred or suspended from receiving Federal assistance prior
   to the payment or award of Federal funds.

6. Develop and implement a written manual/handbook containing policies and
   procedures relating specifically to managing Federal awards.




                                         7
APPENDIX I




               State Education Agency Directors of Arts Education
                        Calculation of Potential Refund



Grant No. 10-5100-8257

Total Outlays                                         $222,552
Less: Questioned In-Kind Costs                       (121,740)
Adjusted Total Outlays                                  100,812
Less: NEA Share of Allowable Costs                     (50,406)
                                                         50,406
Less: SEADAE Required Match                            (50,406)
Overmatch                                              $      0

NEA Disbursement                                         75,000
Less: NEA Share of Allowable Costs                     (50,406)
Potential Refund                                        $24,594

Grant No. 11-5100-8233

Total Outlays                                         $282,423
Less: Questioned In-Kind Costs                       (172,200)
Adjusted Total Outlays                                  110,223
Less: NEA Share of Allowable Costs                     (50,000)
                                                         60,223
Less: SEADAE Required Match                            (50,000)
Overmatch                                               $10,223

NEA Disbursement                                        50,000
Less: NEA Share of Allowable Costs                    (50,000)
Potential Refund                                      $      0




                                       8
